APPENDIX

APPENDIX TO THE PETITION FOR A WRIT
OF CERTIORARI
TABLE OF CONTENTS
Opinion of the United States Court of
Appeals for the Ninth Circuit (Dec. 18, 2019) ..........1a
Order Granting Motions to Dismiss of the
United States District Court for the Western
District of Washington (Apr. 24, 2018) ...................26a
Order Denying Petition for Rehearing En
Banc of the United States Court of Appeals
for the Ninth Circuit (Mar. 18, 2020)......................43a

1a
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MUCKLESHOOT INDIAN TRIBE,
Plaintiff-Appellant,

No. 18-35441

v.

D.C. No.
2:17-sp-00002RSM

TULALIP TRIBES; SUQUAMISH
TRIBE; PUYALLUP TRIBE; SQUAXIN
ISLAND TRIBE, of the Squaxin
Island Reservation; NISQUALLY
TRIBE; SWINOMISH INDIAN TRIBAL
COMMUNITY; STATE OF
WASHINGTON; JAMESTOWN
S’KLALLAM TRIBE; PORT GAMBLE
S’KLALLAM TRIBE; SKOKOMISH
INDIAN TRIBE,
Respondents-Appellees,

OPINION

and
HOH INDIAN TRIBE; LUMMI INDIAN
NATION; QUILEUTE INDIAN TRIBE;
QUINAULT INDIAN NATION;
STILLAGUAMISH TRIBE OF INDIANS;
SAUK-SUIATTLE INDIAN TRIBE,
Real-Parties-in-Interest.
Appeal from the United States District Court
for the Western District of Washington
Ricardo S. Martinez, District Judge, Presiding

2a
Argued and Submitted October 22, 2019
Seattle, Washington
Filed December 18, 2019
Before: Richard R. Clifton and Sandra S. Ikuta,
Circuit Judges, and Jed S. Rakoff, District Judge.
Opinion by Judge Rakoff,
Dissent by Judge Ikuta
SUMMARY
Tribal Matters / Fishing Rights
The panel affirmed the district court’s dismissal
due to lack of jurisdiction of a subproceeding brought
by Muckleshoot Indian Tribe concerning usual and
accustomed fishing grounds and stations (“U&As”) in
western Washington established under the “Stevens
Treaties.”
In United States v. Washington (Final Decision
#1), 384 F. Supp. 312, 330 (W.D. Wash. 1974), aff’d
and remanded, 520 F.2d 676 (9th Cir. 1975), Judge
Boldt made detailed findings of facts and conclusions
of law defining the U&As, and issued a permanent
injunction that retained jurisdiction in implementing
the decision’s decree.

The Honorable Jed S. Rakoff, United States District
Judge for the Southern District of New York, sitting by
designation.


This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.


3a
In Muckleshoot Tribe v. Lummi Indian Tribe, 141
F.3d 1355, 1359–60 (9th Cir. 1998) (“Muckleshoot 1”),
the Court held that where a tribe’s U&As have been
“specifically determined” in Final Decision #1,
continuing jurisdiction under the permanent
injunction resides only in Paragraph 25(a)(1). In
Subproceeding 97-1, this Court affirmed District
Judge Rothstein’s holding that the Muckleshoot’s
saltwater U&As were limited to Elliot Bay. United
States v. Muckleshoot Indian Tribe, 235 F.3d 429, 438
(9th Cir. 2000). In Subproceeding 17-2 at issue in this
case, the Muckleshoot sought under Paragraph
25(a)(6) to expand their U&As to certain areas of
Puget Sound beyond Elliot Bay.
The panel noted that in order for a tribe to bring
an action under Paragraph 25(a)(6), the U&A at issue
must have not been “specifically determined” by Final
Decision #1. As a threshold issue, the panel held that
the district court properly held that Muckleshoot’s
saltwater U&As in Puget Sound had already been
“specifically determined” in their entirety by Judge
Boldt, and accordingly, there was no continuing
jurisdiction under Paragraph 25(a)(6) to entertain the
present subproceeding. The panel did not reach the
other issues raised on appeal.
Dissenting, Judge Ikuta stated that the
majority’s opinion frustrated Judge Boldt’s rulings in
Final Decision #I that his specific determinations were
not comprehensive, and that tribes could invoke the
court’s continuing jurisdiction to determine additional
U&A fishing locations.

4a
COUNSEL
David R. West (argued), Donald B. Scaramastra, and
Margaret A. Duncan, Garvey Schubert Barer, P.C.,
Seattle, Washington; Richard Reich, Robert L. Otsea,
Jr., Laura Weeks, and Ann E. Tweedy, Office of the
Tribal Attorney, Muckleshoot Indian Tribe, Auburn,
Washington; for Plaintiff-Appellant.
Mason D. Morisset, Morisset, Schlosser, Jozwiak, and
Somerville, Seattle, Washington, for RespondentAppellee Tulalip Tribes.
John W. Ogan (argued), Law Office of John W. Ogan,
Sisters, Oregon; James Rittenhouse Bellis, Office of
Suquamish Tribal Attorney, Suquamish, Washington;
for Respondent-Appellee Suquamish Indian Tribe.
Samuel J. Stiltner and John Howard Bell, Law Office,
Puyallup Tribe, Tacoma, Washington, for RespondentAppellee Puyallup Tribe.
Sharon Haensly, David Babcock, and Kevin Lyon,
Squaxin Island Legal Department, Shelton,
Washington, for Respondent-Appellee Squaxin Island
Tribe.
Jay J. Manning and Meghan E. Gavin, Cascadia Law
Group PLLC, Olympia, Washington, for RespondentAppellee Nisqually Indian Tribe.
James M. Jannetta and Emily Haley, Office of the
Tribal Attorney, La Conner, Washington, for
Respondent-Appellee Swinomish Indian Tribal
Community.
Michael S. Grossmann and Joseph V. Panesko,
Assistant Attorneys General; Office of the Washington

5a
Attorney General, Olympia, Washington;
Respondent-Appellee State of Washington.

for

Lauren Rasmussen (argued), Law Offices of Lauren
Rasmussen, Seattle, Washington, for RespondentsAppellees Jamestown S’Klallam Tribe and Port
Gamble S’Klallam Tribe.
Earle David Lees, III, Skokomish Indian Tribe,
Shelton, Washington, for Respondent-Appellee
Skokomish Indian Tribe.
Craig J. Dorsay and Lea Ann Easton, Dorsay & Easton
LLP, Portland, Oregon, for Real-Party-in-Interest Hoh
Indian Tribe.
Mary Michelle Neil, Lummi Indian Nation, Office of
the Reservation Attorney, Bellingham, Washington,
for Real- Party-in-Interest Lummi Indian Nation.
Lauren J. King, Attorney, Foster Pepper PLLC,
Seattle, Washington, for Real-Party-in-Interest
Quileute Indian Tribe.
Eric J. Nielsen, Counsel, Nielsen, Broman & Koch
PLLC, Seattle, Washington, for Real-Party-in-Interest
Quinault Indian Nation.
Scott Mannakee, Stillaguamish Tribe of Indians,
Arlington, Washington; Rob Roy Smith, Kilpatrick
Townsend & Stockton, LLP, Seattle, Washington; for
Real-Party-in-Interest Stillaguamish Tribe of Indians.
Jack Warren Fiander and Elmer Jerome Ward, SaukSuiattle Indian Tribe, Office of Legal Counsel,
Darrington, Washington, for Real-Party-in-Interest
Sauk-Suiattle Indian Tribe.

6a
OPINION
RAKOFF, District Judge:
In the 1850s, Isaac Stevens, then-Governor and
Superintendent of Indian Affairs of the Washington
Territory, executed eleven treaties with Indian tribes
in an area that later became part of the State of
Washington. See Washington v. Washington State
Commercial Passenger Fishing Vessel Ass’n, 443 U.S.
658, 666 (1979); United States v. Washington, 384 F.
Supp. 312, 330 (W.D. Wash. 1974) (“Final Decision
# I”), aff’d and remanded, 520 F.2d 676 (9th Cir. 1975).
Under these so-called “Stevens Treaties,” each tribe
ceded its lands in exchange for securing a small
reservation and the right to take fish “in common
with” others at its “usual and accustomed” fishing
grounds and stations (“U&As”).
In September 1970, the United States, on its own
behalf and as trustee for several Western Washington
Indian tribes (later joined by additional Indian tribes
as intervenor plaintiffs), filed a complaint against the
State of Washington to enforce these treaty fishing
rights. See Final Decision # I, 384 F. Supp. at 327–28.
In February 1974, after the parties had spent more
than three years in exhaustive discovery in the fields
of anthropology, history, biology, fishery management,
and other areas of expertise, followed by a three-week
trial before the Hon. George H. Boldt of the U.S.
District Court for the Western District of Washington,
Judge Boldt issued Final Decision # I, which
encompassed 253 detailed findings of facts and 48
conclusions of law.
Final Decision # I defined U&As as “every fishing
location where members of a tribe customarily fished

7a
from time to time at and before treaty times, however
distant from the then usual habitat of the tribe, and
whether or not other tribes then also fished in the
same waters[.]” Id. at 332. As to the Muckleshoot
Indian Tribe, Final Decision # I stated as follows:
76. Prior to and during treaty times, the
Indian ancestors of the present day
Muckleshoot Indians had usual and
accustomed fishing places primarily at
locations on the upper Puyallup, the
Carbon, Stuck, White, Green, Cedar and
Black Rivers, the tributaries to these
rivers (including Soos Creek, Burns Creek
and Newaukum Creek) and Lake
Washington, and secondarily in the
saltwater of Puget Sound.
Id. at 367 (citations omitted).
In rendering his historic decision, Judge Boldt
clarified that, although Final Decision # I tried to
resolve “as many as possible of the divisive problems
of treaty right fishing,” it “set forth information
regarding . . . some, but by no means all, of [plaintiff
tribes’] principal usual and accustomed fishing
places.” Id. at 330, 333. This was because it was
“impossible to compile a complete inventory of any
tribe’s usual and accustomed grounds and stations” at
that time. Id. at 353; see also id. at 402.
Anticipating that because of these gaps the
decree might face future challenges, Final Decision # I
included a permanent injunction that retained
jurisdiction in implementing the decree. See id. at
408. Specifically, Paragraph 25 of the permanent
injunction identifies various kinds of “subproceedings”

8a
that a party may bring to seek further rulings within
United States v. Washington. See id. at 419. The case
now before the Court, Subproceeding 17-2, is one such
subproceeding. Specifically, the Muckleshoot seek to
expand their U&As to certain areas of Puget Sound
beyond Elliott Bay.
As relevant here, Paragraph 25(a)(1) of the
permanent injunction1 provides for jurisdiction over
determinations of “whether or not the actions,
intended or effected by any party. . . are in conformity
with Final Decision #I or this injunction.” Id. By
contrast, Paragraph 25(a)(6) of the permanent
injunction provides the district court with jurisdiction
over a tribe’s request to decide “the location of any of a
tribe’s usual and accustomed fishing grounds not
specifically determined by Final Decision #I.” Id.
In 1998, this Court issued an opinion in
Muckleshoot Tribe v. Lummi Indian Tribe, holding
that, where a tribe’s U&As have been “specifically
determined” in Final Decision # I, continuing
jurisdiction under the permanent injunction resides
only in Paragraph 25(a)(1), not Paragraph 25(a)(6).
141 F.3d 1355, 1359–60 (9th Cir. 1998) (“Muckleshoot
I”).
This Court further held that in such
circumstances, the district court’s task was to “give
effect to the intention of the issuing court [(i.e., Judge
Boldt)]” by reviewing “the entire record before the
issuing court and the findings of fact . . . in
In 1993, without any changes to each provision’s
substantive
content,
original
Paragraph
25(a)
was
redenominated as current Paragraph 25(a)(1), and original
Paragraph 25(f) was redenominated as current Paragraph
25(a)(6).
1

9a
determining what was decided.” Id. at 1359 (citations
omitted). By contrast, the district court was forbidden
to consider new evidence in making supplemental
findings that “alter, amend or enlarge upon the
description in the decree.” Id. at 1360.
In 1997, the Puyallup Tribe, the Suquamish
Tribe,
and
the
Swinomish
Tribe
brought
Subproceeding 97-1, seeking a determination that the
Muckleshoot had no saltwater U&As outside the
Elliott Bay part of Puget Sound. See United States v.
Washington, 19 F. Supp. 3d 1252, 1272 (W.D. Wash.
1999) (“Subproceeding 97-1”). The main issue in
Subproceeding 97-1, as framed by the district court,
was “whether Judge Boldt intended to designate a
saltwater fishery for the Muckleshoot and, if so, what
areas he intended ‘secondarily in the saltwater of
Puget Sound’ to encompass.” Id. at 1305. After
extensive proceedings, District Judge Barbara J.
Rothstein held that the Muckleshoot’s saltwater
U&As were limited to Elliott Bay. See id. at 1311.
This Court affirmed the district court’s decision. See
United States v. Muckleshoot Indian Tribe, 235 F.3d
429, 438 (9th Cir. 2000).
The
Muckleshoot
brought
the
instant
subproceeding in the district court (Hon. Ricardo S.
Martinez) on July 13, 2017. Relying on Paragraph
25(a)(6), the Muckleshoot seek to obtain additional
U&As in the saltwater of Puget Sound beyond Elliott
Bay.2
To be more precise, the Muckleshoot seek: “All of the
marine waters of Puget Sound to and including the waters in the
vicinity of Gedney (aka Hat) Island and the southern end of
Whidbey Island in the north, to and including the marine waters
2

10a
The Jamestown S’Klallam Tribe, the Port
Gamble S’Klallam Tribe, the Swinomish Tribe, and
the Tulalip Tribe jointly filed a motion to dismiss the
instant subproceeding under Fed. R. Civ. P. 12(b)(1),
arguing that the district court lacked subject matter
jurisdiction because the scope of the Muckleshoot’s
U&As in the saltwater of Puget Sound had been
specifically determined by Judge Boldt.
The
Suquamish Tribe, joined separately by the Squaxin
Island Tribe and the Puyallup Tribe, filed a motion to
dismiss under Fed. R. Civ. P. 12(b)(1) and 12(b)(6).3
The district court granted the motions to dismiss
for two reasons. First, “Judge Boldt [had] specifically
determined Muckleshoot U&A in [Final Decision # I],
and therefore there [was] no continuing jurisdiction
under [Paragraph 25(a)(6)].” Second, the Muckleshoot
tribe was “collaterally estopped from relitigating its
previously-adjudicated U&A in [Subproceeding 97-1].”
This appeal followed.
We have jurisdiction pursuant to 28 U.S.C.
§ 1291. Ordinarily, “[w]e review a dismissal for lack of
subject matter jurisdiction de novo.” Prather v. AT&T,
Inc., 847 F.3d 1097, 1102 (9th Cir. 2017), cert. denied,
137 S. Ct. 2309 (2017). In the present case, the district
court found lack of subject matter jurisdiction based
around Anderson, Fox and McNeil Islands in the south, and all of
the marine waters of Puget Sound between those areas, but
excluding Colvos Passage and marine waters within the
boundaries of any Indian Reservation.”
Relatedly, the Sauk-Suiattle Indian Tribe filed a motion
for leave to file a brief as an interested party. That motion is
GRANTED, and the Court has considered the accompanying
brief.
3

11a
on its interpretation of a prior judicial decree. In such
case, “[t]he district court’s interpretation of a judicial
decree is also reviewed de novo, although this court
typically gives deference to the district court’s
interpretation based on the court’s extensive oversight
of the decree from the commencement of the litigation
to the current appeal.” United States v. Walker River
Irrigation Dist., 890 F.3d 1161, 1169 (9th Cir. 2018)
(internal citation, quotations, and alterations
omitted).
Discussion
In order for a tribe to bring an action under
Paragraph 25(a)(6), the U&A at issue must not have
been “specifically determined” by Final Decision # I.
See Final Decision # I, 384 F. Supp. at 419;
Muckleshoot I, 141 F.3d at 1359–60. Therefore, the
threshold issue in this appeal is whether the district
court erred in holding that the Muckleshoot’s
saltwater U&As in Puget Sound had already been
“specifically determined” by Judge Boldt. Because we
agree with the district court that Judge Boldt had
determined the entirety of the Muckleshoot’s
saltwater U&As, we do not reach other issues raised
on appeal.4
At the motion to dismiss stage of Subproceeding
97-1, Judge Rothstein held that there was no
jurisdictional basis to entertain the three tribes’
Other issues raised on appeal include whether the district
court erred in holding that Subproceeding 97-1 collaterally
estopped Muckleshoot from raising its claim to expand its U&As;
and whether judicial estoppel prevents Muckleshoot from
arguing here that its U&As were not specifically determined in
that earlier subproceeding.
4

12a
claims regarding Muckleshoot’s U&As in Puget Sound
under Paragraph 25(a)(6):
Here, as in [Muckleshoot I], Judge Boldt
has already made a finding of fact
determining the location of Muckleshoot’s
U & A. Although his determination may
have turned out to be ambiguous, he did
make a specific description. . . . Issuing a
supplemental finding under [Paragraph
25(a)(6)]
defining
the
scope
of
Muckleshoot’s U & A in Puget Sound
would “alter, amend or enlarge upon”
Judge Boldt’s description, contrary to the
Ninth Circuit’s holding in [Muckleshoot I].
Subproceeding 97-1, 19 F. Supp. 3d at 1275–76. Later,
at the summary judgment stage of Subproceeding 971, Judge Rothstein, after her extensive review of the
record in front of Judge Boldt, found as follows:
It is clear from the documents Judge Boldt
specifically cited to that the predecessors of
the Muckleshoot were a primarily upriver
people who may have, from time to time,
descended to Elliott Bay to fish and collect
shellfish there. . . . Based on this evidence,
the court concludes that Judge Boldt
intended to include [Elliott Bay] in the
Muckleshoot U & A. . . . The court finds,
however, that there is no evidence in the
record before Judge Boldt, nor is it
persuaded by extra-record evidence, that
Judge Boldt intended to describe a
saltwater U&A any larger than the open
waters and shores of Elliott Bay.

13a
Subproceeding 97-1, 19 F. Supp. 3d at 1310–11. These
findings were affirmed by this Court, which stated,
inter alia, that the “[documents before Judge Boldt]
indicate that the Muckleshoot’s ancestors were almost
entirely an upriver people who primarily relied on
freshwater fishing for their livelihoods. Insofar as
they conducted saltwater fishing, the referenced
documents contain no evidence indicating that such
fishing occurred with regularity anywhere beyond
Elliott Bay.” United States v. Muckleshoot Indian
Tribe, 235 F.3d 429, 434 (9th Cir. 2000).
This was, or should have been, the end of the
matter, as the district court here found. But the
dissent suggests that Judge Rothstein somehow left a
door open for the Muckleshoot to argue that they have
fishing rights in Puget Sound beyond Elliott Bay
because the matter was not finally determined by
Judge Boldt. This misapprehends what occurred in
the prior rulings. When Judge Rothstein was called
upon to determine what Judge Boldt meant when he
ruled that the Muckleshoot had usual and accustomed
fishing places “secondarily in the saltwater of Puget
Sound,” she determined, as quoted above, that he had
necessarily considered whether the Muckleshoot had
fishing places in various parts of Puget Sound but that
he had in the end concluded that such places were
limited to Elliott Bay. In other words, the most
reasonable reading of Judge Rothstein’s findings, as
quoted above, is that Judge Boldt, in referring to the
Muckleshoot’s fishing rights in Puget Sound,
determined in effect that the only part of Puget Sound
in which the Muckleshoot had any usual and
accustomed fishing was “the open waters and shores
of Elliott Bay.” It was precisely for this reason that

14a
Judge Rothstein concluded that “[i]ssuing a
supplemental finding under [Paragraph 25(a)(6)]
defining the scope of Muckleshoot’s U & A in Puget
Sound” would be an impermissible attempt to
contradict
Judge
Boldt’s
determination.
Subproceeding 97-1, 19 F. Supp. 3d at 1275–76
(emphasis added).
In short, Subproceeding 97-I, as affirmed by this
Court, definitively determined that the Muckleshoot’s
saltwater fisheries in Puget Sound had been limited
by Judge Boldt to Elliott Bay. Therefore, the district
court below did not err in holding that it lacked
jurisdiction under Paragraph 25(a)(6) to entertain the
present subproceeding, and properly dismissed it.
AFFIRMED.

IKUTA, Circuit Judge, dissenting:
In United States v. Washington (Final Decision
#I), Judge Boldt not only painstakingly identified
some of the historical usual and accustomed (U&A)
fishing locations for several Western Washington
tribes, but also created a procedure through which the
tribes could bring new evidence to support their claims
to additional U&A fishing locations. 384 F. Supp. 312
(W.D. Wash. 1974), aff’d and remanded, 520 F.2d 676
(9th Cir. 1975). Because the majority thwarts Judge
Boldt’s elegant solution to a complex problem, I
dissent.
I
In his effort to resolve “as many as possible of the
divisive problems of treaty right fishing” in Western

15a
Washington, Judge Boldt had difficult decisions to
make. Id. at 330. Because the tribes had treaty rights
to fish at “all usual and accustomed grounds and
stations,” he had to figure out each tribe’s historical
U&A fishing areas. Id. at 332. But Judge Boldt knew
that he could not define every U&A fishing location for
every tribe. Compiling a “complete inventory” would
be impossible. Id. at 353. So he made findings that
defined, or “specifically determined,” id. at 419, “some,
but by no means all,” of the tribes’ U&A fishing
locations, id. at 333.
Given Judge Boldt’s
acknowledgment that it would be impossible to define
each tribe’s U&A fishing locations conclusively, it is
not surprising that Judge Boldt made no findings that
particular locations were not part of a tribe’s U&A
fishing locations.
After making his findings (his “Specific
Determinations”), Judge Boldt issued an injunction to
set forth “the basic obligations of the parties, together
with means for resolving future matters” in order “to
guide the conduct of all parties, plaintiff and
defendant.” Id. at 413–14. Judge Boldt contemplated
two types of “future matters.”
First, Paragraph 25(a)(1) of the Injunction (the
“Clarification Paragraph”) permits tribes to ask the
court to resolve any ambiguity in Judge Boldt’s
Specific Determinations. Id. at 419. Under the
Clarification Paragraph, tribes can invoke the district
court’s continuing jurisdiction to determine “whether
or not the actions, intended or effected by any party
(including the party seeking a determination) are in
conformity with Final Decision #I or this injunction.”
Id. By invoking the Clarification Paragraph, tribes

16a
can ask the district court to “clarify the meaning of
terms used” in Final Decision #I so as to give effect to
Judge Boldt’s intent. Muckleshoot Tribe v. Lummi
Indian Tribe, 141 F.3d 1355, 1360 (9th Cir. 1998)
(Muckleshoot I).
Second, Paragraph 25(a)(6) of the Injunction (the
“New Determinations Paragraph”) provides that the
tribes can invoke the continuing jurisdiction of the
court to determine “the location of any of a tribe’s
usual and accustomed fishing grounds not specifically
determined by Final Decision #I.” 384 F. Supp. at 419.
Because Judge Boldt understood that he could not
specifically determine all the U&A fishing locations for
every tribe in Final Decision #I itself, he included this
New Determinations Paragraph to allow a tribe to
invoke the court’s jurisdiction to consider further
evidence showing the tribe historically fished at
additional locations not included in the initial Specific
Determinations. Id. at 353, 419. If a district court
concludes, after a proceeding under the New
Determinations Paragraph, that a specific location
does not qualify as a U&A fishing location for a tribe,
the tribe is barred by issue preclusion from bringing a
second request for a determination as to the same
location. See Janjua v. Neufeld, 933 F.3d 1061, 1065–
66 (9th Cir. 2019).
We have previously explained the significant
evidentiary difference between proceedings under the
Clarification Paragraph and the New Determinations
Paragraph. See Muckleshoot I, 141 F.3d at 1359.
When a tribe claims that a Specific Determination is
ambiguous under the Clarification Paragraph, a
court’s only job is to discern Judge Boldt’s intent. This

17a
is because “[w]hen interpreting an ambiguous prior
judgment, the reviewing court should ‘construe a
judgment so as to give effect to the intention of the
issuing court.’” Id. at 1359 (quoting Narramore v.
United States, 852 F.2d 485, 490 (9th Cir. 1988)).
Because Judge Boldt’s intent is all that matters in a
proceeding under the Clarification Paragraph, only
evidence relevant to that intent can be considered in
such a proceeding. Id. at 1360; United States v.
Washington, 19 F. Supp. 3d 1252, 1272, 1310–11 (W.D.
Wash. 1997) (Subproceeding 97-1 or Rothstein
Decision).
By contrast, when a tribe invokes the New
Determinations Paragraph and argues that it is
entitled to fishing locations that were not included in
Judge Boldt’s Specific Determinations, the tribe can
offer any evidence—new or old—relevant to
establishing that the tribe historically fished in those
areas. See Muckleshoot I, 141 F.3d at 1360. Based on
this evidence, the court may specifically determine
additional U&A fishing locations.
II
In this case, the Muckleshoot tribe is bringing a
claim under the New Determinations Paragraph. To
understand the claim, it is necessary to provide some
background.
In Paragraph 76 of Final Decision #I, Judge Boldt
made a Specific Determination regarding the
Muckleshoot’s U&A fishing locations:
76. Prior to and during treaty times, the
Indian ancestors of the present day
Muckleshoot Indians had usual and

18a
accustomed fishing places primarily at
locations on the upper Puyallup, the
Carbon, Stuck, White, Green, Cedar and
Black Rivers, the tributaries to these
rivers (including Soos Creek, Burns Creek
and Newaukum Creek) and Lake
Washington, and secondarily in the
saltwater of Puget Sound. Villages and
weir sites were often located together.
Final Decision #I, 384 F. Supp. at 367 (emphasis
added).
In a proceeding before Judge Rothstein, who had
taken over hearing claims arising under Final
Decision #I from Judge Boldt, the Muckleshoot
pointed to the language in Paragraph 76 providing
that the tribe had U&A fishing locations “secondarily
in the saltwater of Puget Sound.” See Rothstein
Decision, 19 F. Supp. 3d at 1272. The Muckleshoot
contended that this broad language constituted a
Specific Determination that the Muckleshoot’s U&A
fishing locations encompassed all of Puget Sound,
including locations designated as Areas 9, 10, and 11.
Id. at 1274. Three other tribes argued that the phrase
“secondarily in the saltwater of Puget Sound” was
ambiguous, and the Muckleshoot did not “have fishing
rights in Areas 10, 11 and points beyond” in Puget
Sound. Id. at 1273–74.
Because Final Decision #I, on its face, set out a
broad Specific Determination covering all of Puget
Sound, the Muckleshoot tribe had to proceed under the
Clarification Paragraph and could not invoke the New
Determinations Paragraph. See Muckleshoot I, 141
F.3d at 1360. This is because the New Determinations

19a
Paragraph “does not authorize the court to clarify the
meaning of terms used in [Final Decision #I] or to
resolve an ambiguity with supplemental findings
which alter, amend or enlarge upon the description in
the decree.” Id. As both Judge Rothstein and the
Muckleshoot agreed, only the Clarification Paragraph
permitted Judge Rothstein to construe the scope of the
Specific Determination relating to Puget Sound.
Rothstein Decision, 19 F. Supp. 3d at 1273–75.
Proceeding under the Clarification Paragraph,
Judge Rothstein first determined that the terms
“Puget Sound” and “secondarily” were ambiguous. Id.
at 1274. To interpret Judge Boldt’s intent in using
these terms, Judge Rothstein held that she could
consider “evidence before Judge Boldt when he made
his finding,” and evidence “indicative of the
contemporary understanding” of the phrase
“secondarily in the saltwater of Puget Sound.” Id. at
1275. In other words, she could consider evidence
relevant to what “Judge Boldt intended.” Id. at 1311.
After an evidentiary hearing, considering only
that evidence, Judge Rothstein determined that Judge
Boldt intended the phrase “secondarily in the
saltwater of Puget Sound” to mean “Elliott Bay.” Id.
at 1275. In other words, under Judge Rothstein’s
construction of Final Decision #I, Paragraph 76 can no
longer be read as stating that “the Muckleshoot
Indians had usual and accustomed fishing places . . .
secondarily in the saltwater of Puget Sound.” Instead,
Paragraph 76 must be read as stating that “the
Muckleshoot Indians had usual and accustomed
fishing places” in Elliott Bay. In her opinion, Judge
Rothstein did not make any finding that areas outside

20a
of Elliott Bay were not part of the Muckleshoot’s U&A
fishing locations. This makes sense, given that Judge
Rothstein was merely trying to discern Judge Boldt’s
intent, and Judge Boldt had not made findings that
any locations were not part of a tribe’s U&A fishing
locations.
In 2018, after Judge Martinez had taken over for
Judge Rothstein, the Muckleshoot asked the district
court to consider its claims to U&A fishing locations
outside Elliott Bay under the New Determinations
Paragraph. United States v. Washington, 2018 WL
1933718, at *5 (W.D. Wash. April 24, 2018). The
Muckleshoot offered new evidence, not relating to
Judge Boldt’s intent, which the Muckleshoot claimed
showed that various areas within Puget Sound were
historically Muckleshoot U&A fishing locations.
Judge Martinez rejected the Muckleshoot’s
request for a determination under the New
Determinations Paragraph. He reasoned that because
Final Decision #I stated that the Muckleshoot had
U&A fishing locations “secondarily in the saltwater of
Puget Sound,” the court had no authority to “alter,
amend or enlarge” that Specific Determination under
the New Determinations Paragraph. Id. at *6–7.
Judge Martinez therefore dismissed the case for lack
of jurisdiction. Id. at 7.
III
In reaching this conclusion, Judge Martinez
erred, and the majority errs in affirming it.
Judge Martinez was correct that the New
Determinations Paragraph does not authorize a court
to clarify or expand a Specific Determination, even if

21a
that determination is broad and ambiguous.
Muckleshoot I, 141 F.3d at 1360. But after Judge
Rothstein’s decision, Final Decision #I specifically
determined only that Elliott Bay is a U&A fishing
location for the Muckleshoot; there was no longer a
Specific Determination addressing Puget Sound as a
whole. Therefore, the Muckleshoot were entitled to
request a new Specific Determination under the New
Determinations Paragraph relating to areas in Puget
Sound outside of Elliott Bay.
By rejecting the Muckleshoot’s request to
consider this issue under the New Determinations
Paragraph, Judge Martinez’s decision was both unfair
to the Muckleshoot tribe and contrary to Final
Decision #I. It is manifestly unfair for a court to rule
that the Muckleshoot tribe has no U&A fishing
locations outside Elliott Bay without considering all of
the tribe’s evidence.
While Judge Rothstein
considered only evidence of Judge Boldt’s intent in her
proceeding under the Clarification Paragraph, the
Muckleshoot tribe claims it has additional historical
evidence showing it had U&A fishing locations outside
Elliott Bay in Puget Sound.
Such evidence is
admissible in a hearing under the New
Determinations Paragraph.
By denying the
Muckleshoot’s request for such a hearing, Judge
Martinez effectively determined that the tribe did not
have any additional U&A fishing locations in Puget
Sound without reviewing all the admissible evidence.
This is contrary to Final Decision #I, which expressly
allows tribes to request additional determinations
regarding their U&A fishing locations under the New
Determinations Paragraph.

22a
Muckleshoot I is not to the contrary, because it
did not address what happens after a Clarification
Paragraph proceeding alters a Specific Determination.
Muckleshoot I involved a situation similar to the
proceeding before Judge Rothstein. In Muckleshoot I,
the district court considered a Specific Determination
stating that a tribe had a U&A fishing location “from
the Fraser River south to the present environs of
Seattle.” 141 F.3d at 1359. Various tribes disputed
the meaning of “the present environs of Seattle.” Id.
We held that because Judge Boldt had made a broad
Specific Determination, the district court had to
proceed under the Clarification Paragraph and
determine “what Judge Boldt meant in precise
geographic terms by his use of the phrase ‘the present
environs of Seattle.’” Id. at 1360. We also held that
the district court erred in finding (under the New
Determinations Paragraph) that the phrase “the
present environs of Seattle” described an area
extending no farther south than Mukilteo, because a
court cannot use that paragraph to clarify a Specific
Determination. Id. Moreover, we held it would be
improper for the district court to make any new
determination, given that the court had “failed to
allow all parties to present evidence” regarding that
issue. Id. We remanded the case to allow the court to
proceed under the Clarification Paragraph to
determine what Judge Boldt meant when he used the
phrase “the present environs of Seattle.” Id.
We did not, however, address what would happen
after the court interpreted “the present environs of
Seattle.” And based on the logic of Muckleshoot I, if
the district court on remand interpreted Judge Boldt’s
phrase “the present environs of Seattle” narrowly (for

23a
example, to mean “a location no farther south than
present-day Mukilteo,” id. at 1359), nothing in
Muckleshoot I would preclude the tribe from invoking
the New Determinations Paragraph and offering
evidence that other areas in the broader “present
environs of Seattle” were U&A fishing locations of that
tribe.
The same logic applies here. Therefore, Judge
Martinez erred in refusing to allow the Muckleshoot to
invoke the New Determinations Paragraph and in
refusing to consider the tribe’s new evidence as to
locations within Puget Sound that were not
“specifically determined” in Final Decision #I. See 384
F. Supp. at 419.
In holding otherwise, the majority fails to grapple
with the unprecedented procedural posture of this
case, which arose after a proceeding under the
Clarification Paragraph. Instead, its analysis of the
Muckleshoot’s argument rests on two errors.
First, the majority fails to recognize the limited
scope of decisions made in a proceeding under the
Clarification
Paragraph.
The
majority
mischaracterizes Judge Rothstein’s decision as
holding that Judge Boldt made a Specific
Determination excluding all areas in Puget Sound
except for Elliott Bay from the Muckleshoot’s U&A
fishing locations. Maj. at 13. But Judge Rothstein did
not, and could not, make such a finding. Under the
Clarification Paragraph, Judge Rothstein could
consider only Judge Boldt’s intent in making Specific
Determinations. And Judge Rothstein’s ruling, quoted
by the majority, speaks only of Judge Boldt’s intent to
include, not exclude, particular locations. See Maj. at

24a
12 (“Based on this evidence, the court concludes that
Judge Boldt intended to include [Elliott Bay] in the
Muckleshoot U & A. . . . The court finds, however, that
there is no evidence in the record before Judge Boldt,
nor is it persuaded by extra-record evidence, that
Judge Boldt intended to describe a saltwater U&A any
larger than the open waters and shores of Elliott
Bay.”) (quoting Rothstein Decision, 19 F. Supp. 3d at
1310-11) (emphasis added). Judge Boldt’s intent to
include only Elliott Bay as a U&A location, based on
the evidence then before him, does not raise the
inference that Judge Boldt intended to exclude other
areas of Puget Sound from consideration under the
New Determinations Paragraph. Any such finding
would have been directly contrary to Final Decision #I,
given that Judge Boldt excluded no locations from any
tribe’s U&A and expressly laid out a procedure for
tribes to return to court with additional evidence. For
the same reason, the majority’s statement that “Judge
Boldt had determined the entirety of the
Muckleshoot’s saltwater U&As,” Maj. at 11, is directly
contrary to Final Decision #I and Judge Rothstein’s
decision.
Second, the majority confuses law that applies
before a proceeding under the Clarification Paragraph
with law that applies after. In particular, the majority
errs in relying on Judge Rothstein’s statement—made
before she held an evidentiary hearing under the
Clarification
Paragraph—that
“[i]ssuing
a
supplemental finding under [the New Determinations
Paragraph] defining the scope of Muckleshoot’s U&A
in Puget Sound would ‘alter, amend, or enlarge upon’
Judge Boldt’s description,” contrary to Muckleshoot I.
Maj. at 12; see 19 F. Supp. 3d at 1275–76. This

25a
statement is merely a straightforward recitation of
Muckleshoot I’s holding, made before Judge Rothstein
heard evidence clarifying Judge Boldt’s intent. As
explained above, that holding does not speak to what
happens after a proceeding under the Clarification
Paragraph, and neither did Judge Rothstein.
***
In sum, the majority fails to recognize the
Muckleshoot’s plight. Because Judge Boldt made a
Specific Determination using language that
encompassed the entire Puget Sound, the tribe could
not make arguments or present new evidence to Judge
Rothstein about their historic entitlement to locations
within Puget Sound; they were limited to evidence
regarding Judge Boldt’s intent. Now that Judge
Rothstein has determined that Judge Boldt intended
to make a Specific Determination that the tribe had a
U&A fishing location in Elliott Bay, the majority
unfairly holds that the Muckleshoot cannot present
any new evidence regarding their historical use of
other locations in Puget Sound. This frustrates Judge
Boldt’s rulings in Final Decision #I that his Specific
Determinations were not comprehensive, and that
tribes could invoke the court’s continuing jurisdiction
to determine additional U&A fishing locations.
Because Judge Boldt could not have intended this
result, I dissent.

26a
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
UNITED STATES OF
AMERICA, et al.,
Plaintiffs,
v.
STATE OF
WASHINGTON, et al.,

Case No. C70-9213
Sub-proceeding No. 17sp-02
ORDER GRANTING
MOTIONS TO DISMISS

Defendants.

I.

INTRODUCTION

This matter comes before the Court on the
Swinomish Indian Tribal Community’s, Port Gamble
and Jamestown S’Klallam Tribes’, and Tulalip Tribe’s
Motion to Dismiss under Federal Rule of Civil
Procedure 12(b)(1) (Dkt. #25), and the Suquamish
Indian Tribe’s Motion to Dismiss (Dkt. #27), in which
the Squaxin Island Tribe and the Puyallup Tribe of
Indians have also joined (Dkts. #28 and #29)
(hereinafter collectively the “Moving Tribes”). The
Muckleshoot Tribe opposes the motion (Dkt. #31), and
the Nisqually Indian Tribe has joined in that
opposition (Dkt. #33). The Moving Tribes assert that
this Court lacks jurisdiction to hear this matter under
Paragraph 25(a)(6) of the Order Modifying Paragraph
25 of the Permanent Injunction, entered on August 24,
1993, because the Muckleshoot Tribe’s marine usual
and accustomed fishing grounds and stations (“U&A”)

27a
has already been specifically determined, and because
the Muckleshoot asserted a contrary position to that
advanced now in a prior subproceeding in which it
succeeded. Dkts. #25, #27, #28 and #29. The
Muckleshoot oppose the motion on the basis that the
marine U&A asserted now has never been determined.
Dkt. #31. The Nisqually, while not joining any
substantive claims to the U&A, concurs with the
procedural arguments made by the Muckleshoot with
respect to its ability to invoke Paragraph 26(a)(6)
jurisdiction. Dkt. #33. For the reasons discussed
herein, the Court agrees with the Moving Tribes, and
hereby DISMISSES this subproceeding.
I.

BACKGROUND

This case arises from a Request For
Determination (“RFD”) brought by the Muckleshoot
Indian Tribe, in which it seeks a determination that
the Tribe’s U&A under the Treaties of Point Elliott
and Medicine Creek includes additional locations in
the saltwater of Puget Sound not determined in earlier
proceedings in this action. Dkt. #3. The Muckleshoot
invoke jurisdiction under Paragraph 25(a)(6) of the
Order Modifying Paragraph 25 of Permanent
Injunction, entered in this action on August 24, 1993,
which provides in relevant part that a party “may
invoke the continuing jurisdiction of this court in order
to determine . . . [t]he location of any of a tribe’s usual
and accustomed fishing grounds not specifically
determined by Final Decision #1. Dkt. #3 at 2.
In 1970 the United States, as trustee for all the
treaty tribes, filed suit in the Western District of
Washington to obtain an interpretation of the Treaty
of Point Elliott and an injunction protecting treaty

28a
fishing rights from interference by Washington State.
In 1974, Judge Boldt issued extensive findings of fact,
conclusions of law, and a permanent injunction.
United States v. Washington, 384 F. Supp. 312 (W.D.
Wash. 1974) (“Boldt Decree”). The Boldt Decree
defined the Treaty of Point Elliott’s reference to “usual
and accustomed grounds and stations” as meaning
“every fishing location where members of a tribe
customarily fished from time to time at and before
treaty times, however distant from the then usual
habitat of the tribe, and whether or not other tribes
then also fished in the same waters[.]” Id. at 332.
The U&A of the Muckleshoot was described by
Judge Boldt in Findings of Fact (“FF”) 76 his decision:
Prior to and during treaty times, the
Indian ancestors of the present day
Muckleshoot Indians had usual and
accustomed fishing places primarily at
locations on the upper Puyallup, the
Carbon, Stuck, White, Green, Cedar and
Black Rivers, the tributaries to these
rivers (including Soos Creek, Burns Creek
and Newaukum Creek) and Lake
Washington, and secondarily in the
saltwater of Puget Sound. Villages and
weir sites were often located together.
[FPTO § 3-53; Ex. USA-20, p. 38; Ex. USA
27b, pp. 7-16; Ex. PL-23, pp. 11-12.]
384 F. Supp. at 312, 367 (W.D. Wash. 1974), FF 76
(“Decision I”).
On January 11, 1997, the Puyallup Tribe sought
a determination that the Muckleshoot had “no
adjudicated usual and accustomed fishing grounds

29a
and stations in marine waters outside Elliot Bay.”
Case No. 97-sp-00001RSM (originally brought before
Judge Barbara Rothstein), Dkt. #1 at ¶ 1. The
Puyallup sought to “bar any fisheries by the
Muckleshoot Tribe in the waters surrounding Vashon
Island, now known as WDFW Commercial Salmon
Management and Catch Reporting Area 11.” Id. The
Puyallup then immediately moved for a preliminary
injunction. Id., Dkt. #4. In response to the motion, the
Suquamish and the Swinomish Tribes agreed with the
Puyallup that the Muckleshoot had no adjudicated
U&A around the islands of Central and South Puget
Sound, and argued that Judge Boldt’s Finding of Fact
76 that Muckleshoot had U&A “secondarily in the
saltwater of Puget Sound” was ambiguous and that
Judge Boldt never intended to establish Muckleshoot
U&A “in the saltwater, far from the upriver haunts of
the Muckleshoot forbears.”
Case No. 97-sp00001RSM, Dkt. #22 at 2-8. See also id., Dkt. #24. The
Puyallup then withdrew their motion.
The Swinomish and Suquamish next filed a crossrequest for determination seeking, like the Puyallup,
a finding that Muckleshoot marine U&A was “very
limited.” Id., Dkt. #30. Specifically, the Tribes
asserted that the Muckleshoot had no adjudicated
U&A “in Washington Marine Catch Reporting Area 10
or waters west and north of Area 10.” Id., Dkt. #36 at
¶ 1.
On January 15, 1998, Muckleshoot filed a motion
to dismiss the requests for determination, arguing
that Judge Boldt had issued an unambiguous finding
in his initial decision, and that the Requests for
Determination (“RFD”) were barred by the doctrine of

30a
res judicata. Id., Dkt. #47 at 1. Further, Muckleshoot
argued that the RFDs did not fall within this Court’s
continuing jurisdiction. Id. Muckleshoot “took issue”
with the petitioners’ arguments that there was
ambiguity with Judge Boldt’s term “Puget Sound” as
applied to areas 11, 10, 10E, 9, 8 and 8A of Puget
Sound. Id. at 2. Muckleshoot argued that the Court
was limited in its authority to clarify Judge Boldt’s
findings, and that petitioners were merely seeking a
redetermination of the term “Puget Sound” which was
unambiguous as to the waters at issue. Id. at 2-17.
Finally, Muckleshoot argued that the Court did not
have continuing jurisdiction under Paragraph 25(a)(6)
because the U&A had been specifically determined by
Judge Boldt. Id. at 17. The Swinomish, Suquamish
and Puyallup Tribes responded with a Motion for
Summary Judgment, asserting that finding of fact 76
was ambiguous and that the Court had jurisdiction to
clarify that Muckleshoot had no U&A beyond Elliot
Bay. Dkt. #50.
While those motions were pending, the Ninth
Circuit Court of Appeals issued it decision in
Muckleshoot Tribe v. Lummi Indian Tribe, 141 F.3d
1355 (1998) (Muckleshoot I). In that case, relevant to
the instant matter, the Ninth Circuit Court of Appeals
held:
As an alternative ground for its decision,
the district court relied on the continuing
jurisdiction reserved in the decree to
“determine the location of a tribe’s usual
and accustomed fishing grounds not
specifically determined by [Decision I]”
and “such other matters as the Court may

31a
deem appropriate.” Decision I, 384 F.
Supp. at 419. If FF 46 cannot be clarified
by adopting Dr. Lane’s definition of
“present environs of Seattle,” the court
reasoned, the meaning of the phrase was
not “specifically determined” by Decision I.
The court then proceeded to determine the
proper interpretation of the phrase. It
concluded that the only authority capable
of clarifying the meaning of that phrase is
Dr. Lane and based on her testimony, the
court made a supplemental finding that
the phrase “to the present environs of
Seattle” as used in FF 46 describes an area
extending no farther south than Mukilteo.
Although
jurisdiction
to
enter
supplemental findings exists under the
decree, we find the district court erred in
entering a supplemental finding here
because the court failed to allow all parties
to present evidence.
Decision I
acknowledged that “it would be impossible
to compile a complete inventory of any
tribe’s usual and accustomed fishing
grounds and stations.” 384 F. Supp. at
353. At the same time, subparagraph f of
Paragraph
25
reserved
continuing
jurisdiction to determine “the location of a
tribe's usual and accustomed fishing
grounds not specifically determined in
[Decision I].” Id. at 419. Judge Boldt,
however,
did
“specifically
determine[]” the location of Lummi’s
usual
and
accustomed
fishing

32a
grounds, albeit using a description
that has turned out to be ambiguous.
Subparagraph f does not authorize
the court to clarify the meaning of
terms used in the decree or to resolve
an ambiguity with supplemental
findings which alter, amend or
enlarge upon the description in the
decree. Moreover, the issues presented in
subproceeding 86-5 did not comprehend
new determinations of locations of usual
and accustomed fishing grounds.
A
proceeding under subparagraph f raises
issues beyond those defined in the pretrial
order which rejected any submissions from
Lummi involving additional research in
this subproceeding: “The only matter at
issue is the meaning of Judge Boldt’s
Finding No. 46 and the only relevant
evidence is that which was considered by
Judge Boldt when he made his finding.”
Nor do we read subparagraph g – “such
other matters as the court may deem
appropriate” - to grant blanket authority to
make
such
supplemental
findings.
Therefore we find that the district court’s
alternative ground cannot be upheld.
Nevertheless, we recognize that the
district court has a genuine controversy
before it that must be resolved. We
instruct the district court to proceed
pursuant to Paragraph 25, subparagraph a
to resolve this dispute. Subparagraph a
vests continuing jurisdiction to determine

33a
“whether or not the actions . . . by any
party . . . are in conformity with [Decision
I] of this injunction.” 384 F. Supp. at 419.
The RFD, and subsequent proceedings
under it, present the court with a dispute
over whether the southern portion of the
areas in which the Lummi are currently
taking fish is in conformity with the
decree. It will be up to the parties to offer
admissible evidence to enable the district
court to interpret the decree in specific
geographic terms. While evidence that
was before Judge Boldt when he made his
finding is obviously relevant, there may be
other
evidence
indicative
of
the
contemporary understanding of “the
present environs of Seattle.”
141 F.3d at 1359-60 (emphasis added).
After additional briefing on how that decision
affected Subproceeding 97-1, this Court issued an
Order granting Muckleshoot’s motion to dismiss in
part. Case No. 97-sp-00001RSM, Dkt. #164 at 4. In
that Order, the Court found that Finding of Fact 76
was ambiguous in two respects – first, because it was
susceptible to more than one interpretation, and
second, because the term “secondarily” was
ambiguous. Id. at 4-5. The Court, relying on
Muckleshoot I, next ruled that it would consider extrarecord evidence to resolve the ambiguity as long as
such evidence was relevant to determining Judge
Boldt’s intention. Id. at 6. Finally, the Court
determined that it did not have continuing jurisdiction
under paragraph a to determine whether the

34a
Muckleshoot’s actions were in conformity with the
injunction with respect to areas beyond Areas 9, 10
and 11, because the Muckleshoot had represented that
they did not fish in those areas and did not intend to
fish in those areas. Therefore, those areas were no
longer at issue. Id. at 7.
This Court then addressed cross-motions for
summary judgment to determine what Judge Boldt
intended by “secondarily in the Puget Sound.” Id.,
Dkt. #164. The Court noted that all parties agreed
that Muckleshoot’s U&A included Elliot Bay (Area
10A).
However, the parties disputed whether
Muckleshoot had fishing rights that extended beyond
Elliot Bay, if those rights are constrained by the term
“secondarily,” and whether those rights were limited
to the shoreline or whether they included fishing on
open water. Id., Dkt. #164 at 9. The Court reviewed
the evidence before Judge Boldt at the time of his
decision, and rejected numerous other documents
presented by Muckleshoot as unhelpful and
unpersuasive.
Id. at 9-14.
The Court then
determined:
In light of the other U&As Judge Boldt
delineated, it is inconceivable to the court
that he would intend to give the
Muckleshoot, an upriver people, a vast
saltwater U&A stretching from the
Tacoma Narrows to Admiralty Inlet and
overlapping the U&As of tribes with a
documented history of open water fishing
in the same areas. The evidence in the
record is that the Muckleshoot’s
predecessors were upriver Indians with

35a
fisheries primarily in the freshwater of the
Duwamish drainage who descended to fish
at the river’s mouth in Elliott Bay. There
is no evidence that the Muckleshoot fished
in the open marine waters beyond Elliott
Bay. Furthermore, there is no evidence
that the Muckleshoot possessed the
technology to fish on the open waters of
Puget Sound. There is, for example, no
evidence that the Muckleshoot ever used
anything other than the shovelnose river
canoe which was unsuitable for extended
open water fishing. According to Marion
Smith, inland peoples “made and used only
[the] shovel-nose type [canoe] [which] was
used only on rivers above the tide flats.”
Ex. 33 at 289. Thus, the court is persuaded
that Judge Boldt could not have intended
the Muckleshoot’s U&A to include the open
waters of Puget Sound as Professor Morrill
uses that term.
...
It is clear from the documents Judge Boldt
specifically cited to that the predecessors of
the Muckleshoot were a primarily upriver
people who may have, from time to time,
descended to Elliott Bay to fish and collect
shellfish there. The court finds that the
evidence before Judge Boldt establishes, at
a minimum, that the Muckleshoot’s
predecessors may have occasionally fished
in the open waters of Elliott Bay near the
mouth of the Duwamish and gathered

36a
shellfish on the shores of Elliott Bay.
Based on this evidence, the court concludes
that Judge Boldt intended to include those
areas (Department of Fisheries Area 10A)
in the Muckleshoot U&A. In light of the
evidence before Judge Boldt that the
Muckleshoot did fish in the open waters of
Elliott Bay, the court rejects the
Jamestown S’Klallam’s argument that the
Muckleshoot U&A should be limited to the
shoreline.
The court finds, however, that there is no
evidence in the record before Judge Boldt,
nor is it persuaded by extra-record
evidence, that Judge Boldt intended to
describe a saltwater U&A any larger than
the open waters and shores of Elliott Bay.
The court agrees with the Muckleshoot
that Judge Boldt’s use of a broad term like
“Puget Sound” is perplexing in light of the
geographic precision he generally used in
describing U&As. And it agrees that, as a
resident of the Puget Sound area, it is fair
to assume that he would not have used the
terms “Elliott Bay” and “Puget Sound”
interchangeably. However, there is no
evidence in the record before Judge Boldt
that supports a U&A beyond Elliott Bay.
In the court’s view, Judge Boldt probably
did not use a great deal of precision in
describing the Muckleshoot’s saltwater
U&A since the saltwater U&A was clearly
not the main focus of FOF 76 and was only
of secondary importance in relation to the

37a
Muckleshoot’s river U&As, which are
described in great detail in FOF 76.
Case No. 97-sp-00001, Dkt. #164 at 14-17. The Court
then concluded that Muckleshoot’s “U&A is limited to
Department of Fisheries Area 10A and hereby enjoins
respondent from fishing in Department of Fisheries
Area 9, 10, and 11.” Id. at 18.
The Muckleshoot then appealed the matter to the
Ninth Circuit Court of Appeals. Id., Dkt. #166. On
April 16, 2001, the Court of Appeals affirmed the
District Court decision. Id., Dkt. #181.
Muckleshoot have now filed a Request for
Determination in which it seeks a determination that
the Tribe’s U&A under the Treaties of Point Elliott
and Medicine Creek includes additional locations in
the saltwater of Puget Sound not determined in earlier
proceedings in this action.
II.

DISCUSSION

A.
Legal Standard Under Federal Rule of
Civil Procedure 12(b)(1)
Under Federal Rule of Civil Procedure Rule
12(b)(1), a defendant may challenge the plaintiff’s
jurisdictional allegations in one of two ways: (1) a
“facial” attack that accepts the truth of the plaintiff’s
allegations but asserts that they are insufficient on
their face to invoke federal jurisdiction, or (2) a
“factual” attack that contests the truth of the
plaintiff’s factual allegations. Leite v. Crane Co., 749
F.3d 1117, 1121-22 (9th Cir. 2014). In this case, the
Moving Tribes make a factual attack. In reviewing a
factual attack, the Court may consider materials
beyond the complaint. McCarthy v. U.S., 850 F.2d

38a
558, 560 (9th Cir. 1988); see Americopters, LLC v.
F.A.A., 441 F.3d 726, 732 n.4 (9th Cir. 2006) (When
determining the existence of subject matter
jurisdiction, “the district court is not confined by the
facts contained in the four corners of the complaint-it
may consider [other] facts and need not assume the
truthfulness of the complaint.”).
B.

Muckleshoot’s Current RFD

Muckleshoot initiated this subproceeding
through an RFD that invoked Paragraph 25(a)(6) of
Final Decision # 1, 384 F.Supp. at 419, as modified by
this Court’s August 23, 1993 Order Modifying
Paragraph 25 of Permanent Injunction (Case No. 709213, Dkt. #13599). As this Court has previously
explained, Paragraph 25(a)(1) provides the Court with
jurisdiction to determine whether actions by a party
are in conformity with Judge Boldt’s findings in Final
Decision # 1. While Paragraph 25(a)(1) jurisdiction
comes into play where there is potential ambiguity in
Judge Boldt’s findings, Paragraph 25(a)(6) instead
provides jurisdiction to resolve “the location of any of
a tribe’s usual and accustomed fishing grounds
[(“U&A”)] not specifically determined by Final
Decision # 1.” Paragraph 25(a)(6) jurisdiction is thus
contingent on the Court’s finding, or the parties
agreeing, that the disputed waters in question were
not specifically determined by Judge Boldt. In the
instant matter, the parties disagree on whether the
disputed waters were specifically determined by Judge
Boldt. For the reasons discussed by the moving party,
the Court finds that they were.
The specific waters at issue in the current
Muckleshoot RFD are: “All of the marine waters of

39a
Puget Sound to and including the waters in the
vicinity of Gedney (aka Hat) Island and the southern
end of Whidbey Island in the north, to and including
the marine waters around Anderson, Fox and McNeil
Islands in the south, and all of the marine waters of
Puget Sound between those two areas, but excluding
Colvos Passage and marine waters within the
boundaries of any Indian Reservation.” Dkt. #3 at 6.
These waters encompass Salmon Management and
Catch Reporting Areas 10 and 11, and portions of 8A
and 13. See Dkt. #25 at 5.1
As an initial matter, the Court finds that Judge
Boldt specifically determined Muckleshoot U&A in
Decision 1, and therefore there is no continuing
jurisdiction under paragraph 26(a)(6). Indeed, in 97sp-00001, Muckleshoot argued that this Court “cannot
make a supplemental finding under [25(a)(6)] under
Muckleshoot to determine their fishing rights in areas
beyond Areas 9, 10, and 11.”
Case No 97-sp00001RSM, Dkt. #81 at 9. The Court then explained:
The court agrees that Muckleshoot
forecloses this approach. In Muckleshoot,
as an alternative holding, this court made
a supplemental finding of fact under
[subparagraph 25(a)(6)], which reserved
continuing jurisdiction to determine “the
location of a tribe’s usual and accustomed
Because Muckleshoot’s RFD vaguely references “to and
including the waters in the vicinity of Gedney Island and the
southern end of Whidbey Island,” and the waters “around”
Anderson, Fox and McNeil Islands, it is not entirely clear which
portions of Catch Areas 8A and 13 are implicated, or if any
portion of Areas 10A, 11A, 13A, or 13C are implicated.
1

40a
fishing
grounds
not
specifically
determined” by Judge Boldt. The Ninth
Circuit ruled that this alternative holding
could not be upheld. It held that this court
did
not
have
jurisdiction
under
[subparagraph 25(a)(6)] to make a
supplemental finding to determine the
location of Lummi’s U&A because Judge
Boldt
had
already
made
that
determination, albeit using an ambiguous
description. And it remanded with specific
instructions
to
proceed
under
subparagraph [25(a)(1)], which reserves
continuing jurisdiction to determine
“whether or not the actions . . . by any
party . . . are in conformity with” the
injunction in United States v. Washington.
Here, as in Muckleshoot, Judge Boldt has
already made a finding of fact determining
the location of Muckleshoot’s U&A.
Although his description may have turned
out to be ambiguous, he did make a specific
determination. Subparagraph [25(a)(6)]
“does not authorize the court to clarify the
meaning of terms used in the decree or
resolve an ambiguity with supplemental
findings which alter, amend or enlarge
upon the description in the decree.”
Muckleshoot, 141 F.3d at 1359. Issuing a
supplemental finding under subparagraph
f defining the scope of Muckleshoot’s U&A
in Puget Sound would “alter, amend or
enlarge upon” Judge Boldt’s description,

41a
contrary to the Ninth Circuit’s holding in
Muckleshoot.
Case No 97-sp-00001RSM, Dkt. #81 at 9-10. This
Court then granted Muckleshoot’s motion to dismiss
with respect to areas beyond Areas 9, 10, and 11, and
“reserve[d] the question of whether those areas are
part of Muckleshoot’s U&A” until such time as
Muckleshoot “manifested an intent to fish in those
areas.” Id. at p. 11. The Court agrees with the Moving
Tribes that it is clear from the prior Order that it was
reserving jurisdiction to consider Muckleshoot’s U&A
in those beyond waters under 25(a)(1), not 25(a)(6).
See id. at 10-11. Because Muckleshoot invokes only
25(a)(6) jurisdiction, the Court may not proceed on any
of its U&A claims.
Further, Muckleshoot is collaterally estopped
from relitigating its previously-adjudicated U&A in
Areas 9, 10 and 11. Collateral estoppel, also known as
issue preclusion, “bars ‘successive litigation’ of an
issue of fact or law actually litigated and resolved in a
valid court determination essential to the prior
judgment,’ even if the issue recurs in the context of a
different claim.” Taylor v. Sturgell, 553 U.S. 880, 892
(2008), quoting New Hampshire v. Maine, 532 U.S.
742, 748–49 (2001). As noted above, Muckleshoot’s
U&A in Areas 9, 10, and 11 has been “actually
litigated and resolved” by this Court, and a prior
judgment has been issued that establishes that
Muckleshoot does not have U&A in Areas 9, 10, and
11. Case No 97-sp-00001RSM. That prior judgment
has been affirmed by the Ninth Circuit. Thus,
Muckleshoot cannot relitigate those areas now.

42a
For those reasons, the Court agrees that it lacks
jurisdiction under paragraph 25(a)(6) to review
Muckleshoot’s current RFD and it must be dismissed.
III.

CONCLUSION

Having reviewed the Swinomish Indian Tribal
Community’s, Port Gamble and Jamestown S’Klallam
Tribes’, Tulalip Tribe’s, and the Suquamish Indian
Tribe’s motions to dismiss (Dkts. #25 and #27), in
which the Squaxin Island Tribe and the Puyallup
Tribe of Indians have also joined (Dkts. #28 and #29),
the oppositions thereto and replies in support thereof,
along with all supporting declarations and exhibits
and the remainder of the record, the Court hereby
FINDS and ORDERS:
1.

The
Swinomish
Indian
Tribal
Community’s,
Port
Gamble
and
Jamestown S’Klallam Tribes’, and Tulalip
Tribe’s Motion to Dismiss under Federal
Rule of Civil Procedure 12(b)(1) (Dkt. #25)
is GRANTED.

2.

The Suquamish Indian Tribe’s Motion to
Dismiss (Dkt. #27) is GRANTED.

3.

Muckleshoot’s RFD is DISMISSED and
this matter is now CLOSED.

DATED this 24 day of April, 2018.
/s/
RICARDO S. MARTINEZ
CHIEF UNITED STATES
DISTRICT JUDGE

43a

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MUCKLESHOOT INDIAN No. 18-35441
TRIBE,
D.C. No. 2:17-sp-00002Plaintiff-Appellant,
RSM
Western District of
v.
Washington, Seattle
TULALIP TRIBES; et al.,
RespondentsAppellees,

ORDER

HOH INDIAN TRIBE; et
al.,
Real Parties in
Interest.
Before: CLIFTON and IKUTA, Circuit Judges, and
RAKOFF, District Judge.
Judge Ikuta has voted to grant the petition for
rehearing en banc. Judge Clifton and Judge Rakoff
have recommended denial of the petition for rehearing
en banc.

The Honorable Jed S. Rakoff, United States District
Judge for the Southern District of New York, sitting by
designation.


44a
The full court has been advised of the petition for
rehearing en banc, and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35.

